NATIONAL CREDIT UNION ADMINISTRATION

    OFFICE OF INSPECTOR GENERAL



        SEMIANNUAL REPORT
                TO
           THE CONGRESS

         April 1, 2010 – September 30, 2010
TABLE OF CONTENTS



INSPECTOR GENERAL'S MESSAGE .....................................................................................................i

THE NCUA MISSION ............................................................................................................................... 1

THE OFFICE OF INSPECTOR GENERAL MISSION ......................................................................... 1

INTRODUCTION...................................................................................................................................... 2

NCUA HIGHLIGHTS ................................................................................................................................ 5

FEDERALLY INSURED CREDIT UNION HIGHLIGHTS .................................................................. 8

LEGISLATIVE HIGHLIGHTS ................................................................................................................. 9

OFFICE OF THE INSPECTOR GENERAL ......................................................................................... 12

AUDIT ACTIVITY .................................................................................................................................. 13

INVESTIGATIVE ACTIVITY ................................................................................................................ 27

LEGISLATIVE AND REGULATORY REVIEWS ............................................................................... 29

TABLE I: INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS ............. 31

TABLE II: INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE...................................................................................................... 32

TABLE III: SUMMARY OF OIG ACTIVITY APRIL 1 THROUGH SEPTEMBER 30, 2010 .... 33

INDEX OF REPORTING REQUIREMENTS ...................................................................................... 34

APPENDIX A: NCUA SYSTEM REVIEW REPORT (SEC OIG REPORT NO. 478) ................... 35
OIG Semiannual Report                                                       April 1, 2010 – September 30, 2010




                               INSPECTOR GENERAL'S MESSAGE

                                         TO THE NCUA BOARD
                                         AND THE CONGRESS



 I am pleased to provide this semiannual report on the activities and accomplishments of the National
 Credit Union Administration (NCUA) Office of Inspector General (OIG) from April 1, 2010, to September
 30, 2010. During this reporting period, the OIG’s enormous workload challenges persisted, mirroring
 challenges at the NCUA and within the credit union industry overall. In addition, with the signing by
 President Obama of the ―   Dodd-Frank Wall Street Reform and Consumer Protection Act‖ (the Act) on
 July 21, 2010, the federal financial regulators, including NCUA, are occupied with implementing
 sweeping changes to the structure, regulation, and oversight of federal financial institutions. The Act
 also includes provisions that strengthen the independence of Inspectors General.

 Of immediate impact to the NCUA OIG, the Act amends section 216(j) of the Federal Credit Union Act
 (12 U.S.C. 1790d(j)), by increasing the material loss threshold—representing the loss to the National
 Credit Union Share Insurance Fund (NCUSIF) -- from $10 million to $25 million. Once the threshold
 loss amount is triggered, the OIG must conduct a material loss review (MLR) and issue a report. In
 these MLRs, we determine the causes of the credit union’s loss to the NCUSIF and assess the NCUA’s
 supervision of the credit union. The Dodd-Frank Act also requires some level of review for losses that
 do not reach the materiality threshold. Specifically, for losses to the NCUSIF that are not material, the
 Act requires my office to determine (1) the grounds for appointing the NCUA Board as the liquidating
 agent or for the NCUA Board to initiate assistance; and (2) whether any circumstances exist that might
 warrant an in-depth review of the loss--regardless of the loss amount. With regard to these ―       non-
 material‖ losses, the new law also requires my office to prepare a written report, every six months, to
 the Board and the Congress on the results of our determinations.

 The OIG has worked extensively during this reporting period on conducting and reporting MLRs of
 natural person credit unions and, significantly, two corporate credit unions which the NCUA placed
 under federal conservatorship in 2009: U.S. Central Federal Credit Union (U.S. Central) of Lenexa,
 Kansas, and Western Corporate Federal Credit Union (WesCorp) of San Dimas, California. The MLR
 work on both corporates has been completed and we intend to issue the final reports in early October.
 Concurrently, on September 24, 2010, NCUA announced its plan to assume control of three additional
 corporate credit unions, isolate the impaired assets in the corporate credit union system, and finalize a
 set of stronger regulations which require higher capital standards, lower concentration risks, sound
 asset/liability management strategies, and transparent governance for all corporate credit unions. We

                                                     i
OIG Semiannual Report                                                       April 1, 2010 – September 30, 2010


 anticipate that the agency’s implementation of the new regulatory framework for corporate credit unions
 will go far in addressing the deficiencies we noted during our MLR work on U.S. Central and WesCorp,
 respectively.

 On the investigative side, a year-long investigation into a case involving alleged loan fraud on the part
 of a senior employee led the OIG to identify shortcomings in the agency’s process for ensuring that
 NCUA employees’ security clearances are updated in a timely manner, as well as its program for
 reviewing employees’ Office of Government Ethics Confidential Financial Disclosure Reports. We
 intend to follow up with proactive reviews of both programs as OIG resources permit.

 I am very proud of the accomplishments and commitment of our very small staff during the past six
 months. Indeed, over the past two years we have experienced unprecedented workload demands, and
 the OIG staff has consistently risen to the challenges presented with exceptional dedication and a
 positive attitude. The work of my staff has been critical in providing the NCUA, the United States
 Congress, and the public with valuable information about the safety and soundness of the credit union
 system. We look forward to continuing to provide that same high level of service and work product in
 the future.




                                          William A. DeSarno
                                          Inspector General




                                                    ii
OIG Semiannual Report                                                    April 1, 2010 – September 30, 2010




                                       THE NCUA MISSION

 NCUA’s charge is to facilitate the availability of credit union services to all eligible consumers,
 especially those of modest means, through a regulatory environment that fosters a safe and sound
 credit union system.




                        THE OFFICE OF INSPECTOR GENERAL MISSION

 The OIG promotes the economy, efficiency, and effectiveness of NCUA programs and operations, and
 detects and deters fraud, waste, and abuse, thereby supporting the NCUA’s mission of monitoring and
 promoting safe and sound federally insured credit unions.


 We accomplish our mission by conducting independent audits, investigations, and other activities, and
 by keeping the NCUA Board and the Congress fully and currently informed of our work.




                                                   1
OIG Semiannual Report                                                       April 1, 2010 – September 30, 2010




                                             INTRODUCTION

 The NCUA was established as an independent, federal regulatory agency on March 10, 1970. The
 agency is responsible for chartering, examining, supervising, and insuring federal credit unions. It also
 insures state-chartered credit unions that have applied for insurance and have met National Credit
 Union Share Insurance requirements. The NCUA is funded by the credit unions it supervises and
 insures. As of June 30, 2010, the NCUA was supervising and insuring 4,650 federal credit unions and
 insuring 2,795 state-chartered credit unions, a total of 7,445 institutions. This represents a decline of
 64 federal and 45 state-chartered institutions since December 31, 2009, for a total decline of 109 credit
 unions nationwide, primarily as a result of liquidations.




                               Federally Insured Credit Unions


             9000

             8000

             7000       3173
                                   3065
                                            2959
             6000                                     2840       2795

             5000

             4000

             3000
                        5189       5036     4847      4714       4650
             2000

             1000

                0                                                               FISCUs   FCUs
                        2006       2007     2008      2009       2010




 The NCUA operates under the direction of a Board composed of three members. Board members are
 appointed by the President and confirmed by the Senate. They serve six-year terms. Terms are
 staggered, so that one term expires every two years. The Board is responsible for the management of
 the NCUA, including the NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity
 Facility, the Community Development Revolving Loan Fund, and the Temporary Corporate Credit
 Union Stabilization Fund.




                                                       2
OIG Semiannual Report                                                      April 1, 2010 – September 30, 2010


 The NCUA executes its program through its central office in Alexandria, Virginia and regional offices in
 Albany, New York; Alexandria, Virginia; Atlanta, Georgia; Austin, Texas; and Tempe, Arizona. The
 NCUA also operates the Asset Management and Assistance Center (AMAC) in Austin, Texas. Please
 refer to the NCUA organizational chart below.




                                                    3
OIG Semiannual Report                                                      April 1, 2010 – September 30, 2010


     The NCUA Board adopted its 2010 budget of $200,923,512 on November 19, 2009. The Full-
     Time Equivalent (FTE) staffing authorization for 2010 is 1,112 representing an increase of 74
     FTEs from 2009.


                                         NCUA Budget Dollars
                           250


                           200
            Millions




                           150


                           100


                            50


                             0
                                  2006     2007      2008        2009     2010




                                         NCUA Authorized Staff
                           1150

                           1100
         Employees (FTE)




                           1050

                           1000

                           950

                           900

                           850
                                  2006     2007      2008        2009      2010




                                                        4
OIG Semiannual Report                                                        April 1, 2010 – September 30, 2010


                                         NCUA HIGHLIGHTS

 NCUA Adopts Reforms for Corporate Credit Union System
 In an open board meeting on September 24, 2010, the NCUA Board announced that it was assuming
 control of three undercapitalized corporate credit unions, articulated a plan to isolate the impaired
 assets in the corporate credit union system, and finalized a set of stronger regulations—key elements
 in its efforts to resolve the financial challenges facing corporate credit unions without disrupting
 consumer service. NCUA stated that the Temporary Corporate Credit Union Share Guarantee
 Program will remain fully in effect for the entire corporate system through December 31, 2010. In
 addition, NCUA will continue to insure credit union and consumer deposits up to $250,000 per
 account.

 At the September 24 meeting, the NCUA Board announced that setting its plan into motion required
 conservatorship of three additional corporate credit unions: Members United Corporate Federal Credit
 Union of Warrenville, Illinois; Southwest Corporate Federal Credit Union of Plano, Texas; and
 Constitution Corporate Federal Credit Union of Wallingford, Connecticut. In 2009, NCUA placed U.S.
 Central Federal Credit Union of Lenexa, Kansas, and Western Corporate Federal Credit Union of San
 Dimas, California, into conservatorship. In a conservatorship, NCUA replaces an institution’s
 management and board, operating in a way that protects taxpayers’ and members’ interests during its
 orderly transition and resolution.

 The agency’s plan to address the impaired assets and resolve the five troubled institutions involves
 several interrelated steps:

         Isolating the impaired securities (legacy assets) held by these five corporate credit unions;
         Repackaging the legacy assets into new securities with an NCUA guarantee backed by the
          unconditional full faith and credit of the United States government;
         Issuing the new securities to investors on the open market;
         Transferring the corporates’ still-valuable assets to newly created ―    bridge corporate credit
          unions‖ that will allow for continued operations; and
         Transitioning operations now under NCUA conservatorship over a target of 24 months to other
          service providers.

 NCUA consulted with the Treasury, Federal Reserve, and other federal financial regulators in
 developing these plans, and Board members stated the NCUA’s intent to work closely with these other
 agencies to ensure the orderly resolution of conserved corporates, the effective implementation of the
 steps outlined, and the continued smooth operation of the credit union system.

 With the concurrence of Treasury Secretary Timothy F. Geithner, the Temporary Corporate Credit
 Union Stabilization Fund (TCCUSF) was extended to June 30, 2021. This will provide the NCUA
 Board with flexibility in mitigating the impact of the annual assessments to credit unions for the costs
 over this period. The Board emphasized that the costs involved will be borne exclusively by the credit
 union industry, and will not result in any loss to taxpayers.

 NCUA also adopted a new set of regulatory reforms aimed at strengthening the corporate credit union
 system. The new corporate regulation (NCUA Rules and Regulations, Part 704):

         Implements stronger capital requirements and establishes prompt corrective action measures
          for corporate credit unions;

                                                     5
OIG Semiannual Report                                                         April 1, 2010 – September 30, 2010


        Establishes clear concentration limits on investments that will require corporate credit unions to
         better diversify their portfolios;
        Improves asset-liability management requirements to avoid liquidity and interest rate risks; and
        Raises governance standards to improve levels of experience and expertise on corporate
         boards.

 NCUA Board Adopts Federal Accounting Standard for NCUSIF

 At its September 24, 2010, Board meeting, the NCUA Board voted to adopt Federal Accounting
 Standards Advisory Board (FASAB) standards, also known as Federal Accounting Standards, for the
 National Credit Union Share Insurance Fund (NCUSIF), retroactive to January 1, 2010. The Board
 action followed a similar June 17, 2010, action that adopted the same accounting standards for the
 TCCUSF. The Board stated that since the June action, the agency had gained more experience with
 FASAB standards and concluded that they more appropriately met the financial reporting
 requirements of the NCUSIF and its stakeholders. FASAB is the preferred method of reporting for
 federal entities. The American Institute of Certified Public Accountants (AICPA) recognizes FASAB as
 the board that promulgates generally accepted accounting principles (GAAP) for federal entities.
 FASAB is responsible for designating GAAP for federal entities.

 NCUA Files Amended Complaint for Losses at WesCorp
 The NCUA Board, in its role as Conservator of Western Corporate Federal Credit Union (WesCorp),
 filed an amended complaint on August 31, 2010, with the U.S. District Court for the Central District of
 California in a pending lawsuit as a result of losses at the conserved corporate credit union. The
 August 31 filing, which superseded a November 2009 complaint, alleged various breaches of fiduciary
 duties of care and gross negligence on the part of fifteen former WesCorp directors and officers in
 connection with over-concentration of certain types of Option ARM Mortgage Backed Securities. The
 complaint also alleged breaches of fiduciary duty and fraud on the part of two former WesCorp officers
 and unjust enrichment on the part of one former officer in connection with irregular payments from
 WesCorp’s Supplemental Executive Retention Plans.

 The November 2009 suit, which the August 31, 2010, complaint superseded, was filed by a group of
 seven WesCorp member credit unions against certain current and former directors and officers of
 WesCorp in a case captioned 1st Valley Credit Union, et al. v. Bland, et al. NCUA intervened in that
 lawsuit and removed the case to Federal District Court. On July 15, 2010, the court granted NCUA’s
 motion to substitute the Conservator as proper party plaintiff as to all derivative claims.

 NCUA Office of Consumer Protection Takes Shape as Regulators Lay Consumer Bureau
 Groundwork
 During the reporting period, the NCUA Board approved the creation of the Office of Consumer
 Protection (OCP). OCP will be responsible for all consumer protection and consumer compliance
 policy, programs, and rulemaking; interagency liaison responsibilities for consumer protection and
 compliance issues; fair lending examinations; the member assistance call center; and consumer
 financial literacy programs. The new Office, which will be headed by Kent Buckham as Director,
 consists of two divisions—Division of Consumer Compliance and Outreach; and Division of Consumer
 Access.

 Concurrently, on July 29, 2010, NCUA Chairman Matz joined Treasury Secretary Timothy Geithner
 and other federal financial regulators for the initial meeting of an inter-agency working group designed
 to transfer personnel and functions to the newly-created Consumer Financial Protection Bureau

                                                      6
OIG Semiannual Report                                                       April 1, 2010 – September 30, 2010


 (CFPB). The meeting was also attended by Federal Reserve Board Chairman Ben Bernanke,
 Comptroller of the Currency John Dugan, Federal Deposit Insurance Corporation Chair Sheila Bair,
 Federal Trade Commission Chairman Jon Leibowitz, and Housing and Urban Development Secretary
 Shaun Donovan. NCUA participation in discussions about operations and staffing of the CFBP will be
 ongoing.

 Title X of the Dodd-Frank Wall Street Reform and Consumer Protection Act, signed into law on July
 21, 2010, created the CFPB, within the Board of Governors of the Federal Reserve System, to protect
 financial consumers. The Bureau will regulate the offering and provision of consumer financial
 products or services under the federal consumer financial laws, and has greater jurisdictional authority
 over financial institutions with assets in excess of $10 billion.

 NCUA Financial Reports Receive Clean Audits
 On June 14, 2010, the NCUA released financial reports for 2008 and 2009, including audited
 statements of the national Credit Union Share Insurance Fund (NCUSIF). The audits for 2008 were
 completed by Deloitte & Touche, LLP, while the audits for 2009 were completed by KPMG, LLP. The
 NCUSIF received unqualified or ―     clean‖ audit opinions for both years. In addition to the NCUSIF,
 auditors also certified the financial accuracy of three other funds overseen by NCUA: the Operating
 Fund, the Community Development Revolving Loan Fund; and the Central Liquidity Facility. One
 month later, on July 26, 2010, the agency released the KPMG audit of the financial statements for the
 TCCUSF. The TCCUSF also received an unqualified or ―       clean‖ audit with no deficiencies noted.

 NCUA Budget Reduction will Cut Operating Fees $2 Million
 After a mid-year review found NCUA operations running 8 percent below the agency’s original budget
 during the first half of 2010, NCUA Chairman Matz announced that the NCUA’s budget was reduced
 by $2 million, which is projected to reduce cash needs by $2 million for 2011 federal credit union
 operating fees. With total NCUA operating costs for the 12-month period ending December 31, 2010,
 reduced by $2 million, NCUA’s annual budget this year is $198,923,512. Staffing vacancies provided
 the bulk of unused 2010 funding. Various budget reductions more than offset $3 million worth of new
 initiatives, which are slated to support and expand core programs and agency goals.




                                                    7
OIG Semiannual Report                                                        April 1, 2010 – September 30, 2010


                        FEDERALLY INSURED CREDIT UNION HIGHLIGHTS



 Credit unions submit quarterly call reports (financial and operational data) to the NCUA. An NCUA staff
 assessment of the June 30, 2010, quarterly call reports submitted by all federally insured credit unions
 found that key financial indicators show concern.

 Key Financial Indicators Showing Concern
 Looking at the June 30, 2010 quarterly statistics for major balance sheet items and key ratios shows
 the following for the nation’s 7,445 federally insured credit unions: assets grew 4.4 percent; net worth to
 assets ratio decreased from 9.9 to 9.88 percent; the loan to share ratio decreased from 76.07 percent
 to 72.82 percent. However, the delinquency ratio decreased from 1.83 to 1.73 percent; and credit
 union return on average assets increased from .18 percent to .41 percent.

 Savings Shifting to Money Market Accounts
 Total share accounts increased 6.68 percent. Money market shares increased 8.1 percent. Regular
 shares comprise 27.75 percent of total share accounts; share certificates comprise 28.05 percent;
 money market shares comprise 21.99 percent; share draft accounts comprise 11.05 percent; and all
 other share accounts comprise 11.15 percent.

 Loans Decreased Slightly
 Loan decline of 2.14 percent resulted in a decrease in total loans by $6.11 billion. Total net loans of
 $557 billion comprise 62 percent of credit union assets. First mortgage real estate loans are the largest
 single asset category with $219.8 billion accounting for 38.81 percent of all loans. Other real estate
 loans of $90.08 billion account for 15.09 percent of all loans. Used car loans of $99.52 billion were
 17.57 percent of all loans, while new car loans amounted to $68.01 billion or 12.01 percent of total
 loans. Credit card loans totaled $34.43 billion or 6.08 percent of total loans and other loans totaled
 $54.53 billion for 9.63 percent of total loans.




                                                     8
OIG Semiannual Report                                                          April 1, 2010 – September 30, 2010


                                     LEGISLATIVE HIGHLIGHTS



 President Obama Signs “Dodd-Frank Wall Street Reform and Consumer Protection Act”
 On July 21, 2010, President Obama signed into law the ―           Dodd-Frank Wall Street Reform and
 Consumer Protection Act,‖ a historic piece of legislation that will play a crucial role in preventing future
 financial crises, helping families save for the future, and growing the nation’s economy. The Act has a
 number of provisions that pertain specifically to NCUA, including:

        Creates a Financial Stability Oversight Council, a body consisting of the heads of the eight
         primary Federal financial regulatory agencies, the Director of the CFPB, and an independent
         presidential appointee. The NCUA Chairman serves as a voting member of the Council, which
         is charged with monitoring potential systemic risks and maintaining the country’s financial
         stability.
        Makes $250,000 the permanent maximum share insurance amount.
        Temporarily authorizes NCUA to fully insure the net amount maintained in non-interest-bearing
         transaction accounts through December 31, 2010. Share insurance coverage is provided by
         the NCUA NCUSIF.
        Requires the NCUA, in addition to the Federal Reserve Board, Office of the Comptroller of the
         Currency, the Federal Deposit Insurance Corporation, the Office of Thrift Supervision, the
         Securities and Exchange Commission, and the Federal Housing Finance Agency, within 9
         months of the bill’s enactment, to jointly prescribe regulations or guidelines requiring regulated
         entities with assets of $1 billion or more to disclose the structures of all incentive-based
         compensation arrangements offered by the regulated entities to determine if those
         arrangements provide excessive compensation or could lead to material financial loss.
        With the Act’s creation of the CFPB, the NCUA is consolidating its in-house consumer
         protection responsibilities. The CFPB will have one mission: to protect consumers by
         promoting transparency and consumer choice and preventing abusive and deceptive practices
         in consumer financial products and services. After extensive consultation between the
         Treasury, NCUA, and the National Treasury Employees Union, NCUA will transfer its share of
         employees who work on consumer protection to the independent entity that will be housed
         within the Federal Reserve.
        Amends section 216(j) of the Federal Credit Union Act (12 U.S.C. 1790d(j)), by increasing the
         material loss threshold—representing the loss to the NCUSIF -- from $10 million to $25 million.
         Once the threshold loss amount is triggered, the OIG must conduct a material loss review
         (MLR) and issue a report. The Dodd-Frank Act also requires some level of OIG review and
         reporting for losses that do not reach the materiality threshold.
        Provides financial institutions with an appeals process requiring the CFPB and agency to issue
         a joint statement of coordinated supervisory action in an effort to avoid supervision conflicts
         between the CFPB and a Federal financial regulator when both have a supervisory interest.
         Where appropriate, NCUA will have a representative on the governing panel hearing such
         appeals.
        Requires the CFPB and the NCUA (and the other prudential regulators) to issue regulations
         prohibiting retaliation against any financial institution that initiated an appeal.
        Requires NCUA (and the other Federal banking agencies) to provide guidelines to credit
         unions regarding the offering of low-cost remittance transfers and no-cost basic consumer
         accounts, as well as agency services to remittance transfer providers.


                                                      9
OIG Semiannual Report                                                          April 1, 2010 – September 30, 2010


         Requires NCUA and other agencies, no later than six months after the date of enactment, to
          establish an Office of Minority and Women Inclusion that will be responsible for all matters
          relating to diversity in management, employment, and business activities.

  Additionally, the legislation provides for the following mortgage reforms:

         Ensures borrowers’ ability to repay loans they are sold.
         Prohibits unfair lending practices.
         Expands consumer protections for high-cost mortgages.
         Establishes penalties for irresponsible lending.
         Requires additional disclosures on adjustable-rate mortgages.

 Although the Act focuses primarily on the financial services sector, it also contains two provisions that
 are relevant to all IGs. First, section 989C amends the ―  Inspector General Act of 1978, as amended,‖
 to require IGs to include their peer review results as an appendix to each semi-annual report. Second,
 section 1505 requires the Government Accountability Office (GAO) to conduct a study of the relative
 independence, effectiveness, and expertise of all IGs. The report must also assess how amendments
 to the IG Act made by Dodd-Frank will impact the independence of each affected agency’s OIG. A
 third provision only affects Designated Federal Entity (DFE) IGs, such as the NCUA IG, that report to a
 full board or commission. The Act conditions DFE IGs’ removal on the written concurrence of a two-
 thirds majority of the board or commission to which the IG reports.

 Improper Payments Act Signed Into Law

 On July 22, 2010, President Obama signed the ―      Improper Payments Elimination Act,‖ into law. The
 law amends the ―   Improper Payments Information Act of 2002,‖ by requiring agencies to periodically
 identify and review all programs and activities susceptible to significant improper payments (as defined
 in the Act) and to report on actions to reduce or recover improper payments in accordance with
 guidance to be issued by the Office of Management and Budget (OMB). Under the Act, Inspectors
 General are responsible for annually determining whether their agencies have complied with seven
 requirements in the Act and submitting reports with their findings to the head of their agency, the GAO,
 the Senate Committee on Homeland Security and Government Affairs, and the House Committee on
 Oversight and Government Reform. A finding by an IG that its agency is not in compliance triggers
 certain requirements for agency heads. The statute emphasizes the use of recovery audits by
 agencies and provides that up to five percent of amounts collected through such audits may be made
 available to IGs to carry out the Act. Additionally, the Act tasks the Council of Inspectors General on
 Integrity and Efficiency (CIGIE) and the Chief Financial Officers Council to issue a joint report
 identifying improvements to the legislative and regulatory framework for financial management. For
 executive branch agencies, the Act supplements an executive order on reducing improper payments
 that was issued in November 2009. That order, E.O. 13520, directs the OMB to identify Federal
 programs that are most susceptible to improper payments and to set reduction targets. Agencies must
 provide their IGs with implementation plans for meeting OMB’s reduction targets, and IGs must review
 the implementation plans and offer recommendations for improvement.

 Data Breach Notification Act Placed on Senate Calendar

 S. 139, the ―Data Breach Notification Act,‖ was reported out of the Senate Judiciary Committee on
 September 15, 2010, and placed on the Senate Legislative Calendar. The Act, introduced by Senator
 Dianne Feinstein (D-CA) in January 2009, would require Federal agencies to notify individuals and
 certain law enforcement agencies of security breaches of personally identifiable information (PII). It

                                                     10
OIG Semiannual Report                                                        April 1, 2010 – September 30, 2010


 would also supersede any other Federal or State laws concerning notifications of PII security
 breaches, including a current requirement in the Federal Information Security Management Act
 (FISMA) that agencies notify their respective IGs in the event of a ― security incident.‖ Despite a letter
 to the Judiciary Committee sent by the CIGIE proposing reinstatement in the bill of language requiring
 IG notification for breaches of PII, the bill was reported out of the Judiciary Committee in September
 without amendment.




                                                     11
OIG Semiannual Report                                                     April 1, 2010 – September 30, 2010


                            OFFICE OF THE INSPECTOR GENERAL


 The Office of the Inspector General was established at the NCUA in 1989 under the authority of the
 Inspector General Act of 1978, as amended. The staff consists of the Inspector General, Deputy
 Inspector General, Counsel to the Inspector General, Director of Investigations, Auditor, two Senior
 Auditors, Senior Information Technology Auditor, and Office Manager.

 The Inspector General reports to, and is under the general supervision of, the NCUA Board. The
 Inspector General is responsible for:

         1. Conducting, supervising, and coordinating audits and investigations of all NCUA programs
            and operations;

         2. Reviewing policies and procedures to ensure efficient and economic operations as well as
            preventing and detecting fraud, waste, and abuse;

         3. Reviewing existing and proposed legislation and regulations to evaluate their impact on the
            economic and efficient administration of agency programs; and

         4. Keeping the NCUA Board and the Congress apprised of significant findings and
            recommendations.




                                                        NCUA OIG
                                                   Organizational Chart




                                                   12
OIG Semiannual Report                                                        April 1, 2010 – September 30, 2010


                                          AUDIT ACTIVITY

     Audit Reports Issued


 OIG-10-02 –April 14, 2010
 Material Loss Review of Center Valley Federal Credit Union
 The National Credit Union Administration (NCUA) Office of Inspector General (OIG) conducted a
 Material Loss Review of Center Valley Federal Credit Union (Center Valley). We reviewed Center
 Valley to: (1) determine the cause(s) of failure and the resulting estimated $16.4 million loss to the
 National Credit Union Share Insurance Fund (NCUSIF); and (2) assess NCUA’s supervision of the
 credit union. To achieve these objectives, we analyzed NCUA examination and supervision reports
 and related correspondence; reviewed external auditor work papers; interviewed management and
 staff from NCUA Region II; and reviewed NCUA guides, policies and procedures, NCUA Call
 Reports, and NCUA Financial Performance Reports.

 We determined embezzlement was the direct cause of Center Valley’s failure. During a surprise
 visit to review Center Valley’s call reports and to obtain share and loan balance downloads, NCUA
 examiners found the chief executive officer (CEO) was keeping two sets of financial records and a
 $12.1 million discrepancy existed. Back dated transactions to member accounts were used to
 conceal the fraudulent activity. On August 3, 2009, a Federal Grand Jury indicted and charged the
 CEO with embezzling and misapplying $9 million from Center Valley and money laundering.
 Consequently, on January 4, 2010, the CEO pled guilty to the charges.

 We also determined that credit union management failed to meet their required obligations to
 implement proper internal controls and oversight. Specifically, management did not ensure (1)
 member account verifications were properly conducted, (2) adequate internal controls were in
 place, and (3) controls were monitored for effectiveness. Although Center Valley’s Supervisory
 Committee contracted with external auditors to complete their annual audit, we did not find any
 evidence of other work performed by the Supervisory Committee. In addition, neither the external
 auditor nor credit union management resolved a $252,000 bank reconciliation error. Furthermore,
 bank reconcilements were several months in arrears, file maintenance reports were not reviewed,
 and there was a lack of segregation of duties.

 Finally, we determined NCUA examiners did not adequately evaluate the risks to Center Valley’s
 operations. Specifically, examiners did not thoroughly evaluate the credit union’s internal controls
 when assessing transaction risk and management component ratings. We found prior to the
 discovery of the embezzlement NCUA examiners were aware of some internal control weaknesses
 but did not rate transaction risk as high. As a result, NCUA missed opportunities to expand
 examination procedures that may have detected the fraud sooner and mitigated the loss to the
 NCUSIF caused by Center Valley’s failure.




                                                    13
OIG Semiannual Report                                                        April 1, 2010 – September 30, 2010


 OIG-10-03 – April 14, 2010
 Material Loss Review of Cal State 9 Credit Union
 The National Credit Union Administration (NCUA) Office of Inspector General (OIG) conducted a
 Material Loss Review of Cal State 9 Credit Union (Cal State 9). We reviewed Cal State 9 to: (1)
 determine the cause(s) of failure and the resulting estimated $206 million loss to the National Credit
 Union Share Insurance Fund (NCUSIF); and (2) assess NCUA’s supervision of the credit union. To
 achieve these objectives, we analyzed NCUA examination and supervision reports and related
 correspondence; reviewed external auditor work papers; interviewed management and staff from
 NCUA Region II; and reviewed NCUA guides, policies and procedures, NCUA Call Reports, and
 NCUA Financial Performance Reports.

 We determined Cal State 9 failed because its Board and management (management) did not
 implement adequate risk management practices to address credit, concentration, and liquidity risks.
 Specifically, management committed an exorbitant percentage of the credit union’s assets in an
 indirect Home Equity Line of Credit (HELOC) program without adequate controls in place to
 oversee and manage the risks in the program’s operations.

 A significant factor in Cal State 9’s failure was management’s strategic decision to fund an
 excessive amount of indirect HELOCs rife with risky loan elements despite examiners’ concerns in
 the years preceding the institution’s failure. California SSA and NCUA examiners determined, and
 the OIG agrees, that Cal State 9 management:

            Created credit risk through weak underwriting standards.

            Created concentration risks by: (1) allowing the indirect HELOC portfolio to account for a
             significant percentage of the credit union’s total assets, and (2) funding most of the
             indirect HELOC portfolio with subprime loans.

            Created liquidity risk through their rapid and excessive funding of high risk subprime
             indirect HELOCs.

 We determined that despite examiners’ concerns and recommendations for improvement,
 management’s inability to effectively manage the risks their own actions had created eventually led
 to Cal State 9’s failure.

 We also determined NCUA and California SSA examiners did not respond adequately or timely to
 the risks facing Cal State 9, considering: (1) the rate and level of growth of the HELOC portfolio; (2)
 the excessive concentration of HELOCs, nearly all of which contained subprime elements; and (3)
 the continuing changes in the California real estate market environment. Finally, we determined
 examiners did not adequately monitor the credit union’s liquidity position. As a result, we believe
 examiners missed opportunities to slow or stop the growth of the indirect HELOC program, which
 would have likely mitigated the loss to the NCUSIF.




                                                     14
OIG Semiannual Report                                                        April 1, 2010 – September 30, 2010


 OIG-10-04 – May 5, 2010
 Material Loss Review of Eastern Financial Florida Credit Union
 The National Credit Union Administration (NCUA) Office of Inspector General (OIG) contracted with
 Crowe Horwath LLP to conduct a Material Loss Review (MLR) of Eastern Financial Florida Credit
 Union (Eastern Financial or EFFCU), a federally insured state-chartered credit union (FISCU). The
 MLR objectives were to (1) determine the cause(s) of EFFCU’s failure and the resulting estimated
 $40 million loss to the National Credit Union Share Insurance Fund (NCUSIF), and (2) assess
 supervision of the credit union. To achieve these objectives, we analyzed NCUA and Florida State
 Supervisory Authority (Florida SSA) examination and supervision reports and related
 correspondence; interviewed management and staff from NCUA Region III and the Florida SSA;
 and reviewed NCUA and Florida SSA guides, policies and procedures, NCUA Call Reports, and
 NCUA Financial Performance Reports (FPRs).

 Eastern Financial’s management and Board did not practice sound risk management and created
 an environment of excessive spending, rapid expansion, increased concentration risk, and a flawed
 overall strategic plan that put increasing pressure on the credit union to produce higher levels of
 revenue. As EFFCU’s profitability lagged its asset growth, the Board and management approved a
 leverage strategy to make significant investments in CDOs funded by short term borrowings without
 fully understanding the interest rate and credit risks associated with such complex investments and
 exposed EFFCU’s net worth. Management allowed the CDO investment exposure to represent a
 significant concentration compared to net worth over a short period of time and failed to impose
 practical limits in the complex and risky investments. Once the investments deteriorated in value,
 EFFCU management had no course of action for proper divestiture of the assets, even when the
 investment grades fell below permissible levels per Florida statutes.

 We also determined that had examiners taken stronger supervisory action earlier, EFFCU’s Board
 and management may have been influenced to address their aggressive growth strategy and CDO
 investment strategy. As a result, the significant level of risk assumed during the institution’s rapid
 growth period may have been lessened, to some extent, which would have mitigated the loss to the
 NCUSIF.

 This report did not make formal recommendations but provided observations and suggestions.
 Observations made as a result of our review of EFFCU’s failure included:

    Examiners and officials did not appear to fully understand the severity of the risks associated
     with the purchases of CDO investments, nor did it appear that examiners performed further
     evaluation of CDO investments as required under NCUA guidance. Examiners should have
     deemed the credit union’s CDO investment activity as a higher risk warranting greater
     supervisory efforts, especially given that the CDOs were not typical investments held by natural
     person credit unions.

    Eastern Financial’s management and Board exposed the credit union to excessive risks by not
     placing prudent limits on CDO sectors. Reasonable measures would have included lower limits
     for the CDO sector and further limits on underlying collateral exposure as a percent of net worth.

    NCUA and Florida SSA could have benefited from more active dialogue and more detailed
     workpapers during the supervision of EFFCU due to its size and complexity. Additional
     communication should be encouraged or required when credit union’s request to purchase
     complex investments that are not typical of natural person credit unions.


                                                    15
OIG Semiannual Report                                                      April 1, 2010 – September 30, 2010


 OIG-10-05/06/07/08 – June 11, 2010
 Financial Statements Audit 2008: Operating Fund, Share Insurance Fund, Central Liquidity
 Facility, and Community Development Revolving Loan Fund
 Our contracting audit firm, Deloitte & Touche LLP, issued opinions on the 2008 financial statements of
 the National Credit Union Administration Operating Fund, National Credit Union Share Insurance Fund,
 the Central Liquidity Facility, and the Community Development Revolving Loan Fund. The auditors
 found that the financial statements presented fairly the financial position of the agency’s funds as of
 December 31, 2008.

 The NCUA Operating Fund (OIG-10-05) was established as a revolving fund managed by the NCUA
 Board for the purpose of providing administration and service to the federal credit union system. The
 auditors issued an unqualified opinion on the Operating Fund’s financial statements. The funds total
 assets for 2008 were $59.7 million, down from $60.8 million in 2007.

 The National Credit Union Share Insurance Fund (OIG-10-06) was established as a revolving fund
 managed by the NCUA Board to insure member share deposits in all Federal credit unions and
 qualifying state credit unions. The auditors issued an unqualified opinion on the Share Insurance
 Fund’s financial statements. The Fund’s total assets for 2008 were $8.2 billion, up from $7.5 billion in
 2007.

 The Central Liquidity Facility (OIG-10-07) was established as a mixed ownership government
 corporation managed by the NCUA Board to improve general financial stability by meeting the liquidity
 needs of credit unions. The auditors issued an unqualified opinion on the Central Liquidity Facility’s
 (CLF) financial statements. The CLF’s total assets for 2008 were $1.6 billion, down from $1.7 billion in
 2007.

 The Community Development Revolving Loan Fund’s (OIG-10-08) purpose is to stimulate economic
 activities in the communities served by low-income credit unions. This in turn will result in increased
 income, ownership and employment opportunities for low-wealth residents and other economic growth.
 The auditors issued an unqualified opinion on the Fund’s financial statements. The Community
 Development Revolving Loan Fund’s total assets for 2008 were $16.2 million, down from $16.3 million in
 2007.




                                                   16
OIG Semiannual Report                                                      April 1, 2010 – September 30, 2010


 OIG-10-09/10/11/12 – June 11, 2010
 Financial Statements Audit 2009: Operating Fund, Share Insurance Fund, Central Liquidity
 Facility, and Community Development Revolving Loan Fund
 Our contracting audit firm, KPMG LLP, issued opinions on the 2009 financial statements of the National
 Credit Union Administration Operating Fund, National Credit Union Share Insurance Fund, the Central
 Liquidity Facility, and the Community Development Revolving Loan Fund. The auditors found that the
 financial statements presented fairly the financial position of the agency’s funds as of December 31,
 2009.

 The NCUA Operating Fund (OIG-10-05) was established as a revolving fund managed by the NCUA
 Board for the purpose of providing administration and service to the federal credit union system. The
 auditors issued an unqualified opinion on the Operating Fund’s financial statements. The funds total
 assets for 2009 were $66.0 million, up from $59.7 million in 2008.

 The National Credit Union Share Insurance Fund (OIG-10-06) was established as a revolving fund
 managed by the NCUA Board to insure member share deposits in all Federal credit unions and
 qualifying state credit unions. The auditors issued an unqualified opinion on the Share Insurance
 Fund’s financial statements. The Fund’s total assets for 2009 were $19.8 billion, up from $8.2 billion in
 2008.

 The Central Liquidity Facility (OIG-10-07) was established as a mixed ownership government
 corporation managed by the NCUA Board to improve general financial stability by meeting the liquidity
 needs of credit unions. The auditors issued an unqualified opinion on the Central Liquidity Facility’s
 (CLF) financial statements. The CLF’s total assets for 2009 were $20.2 billion, up from $1.6 billion in
 2008.

 The Community Development Revolving Loan Fund’s (OIG-10-08) purpose is to stimulate economic
 activities in the communities served by low-income credit unions. This in turn will result in increased
 income, ownership and employment opportunities for low-wealth residents and other economic growth.
 The auditors issued an unqualified opinion on the Fund’s financial statements. The Community
 Development Revolving Loan Fund’s total assets for 2009 were $17.8 million, up from $16.2 million in
 2008.

 OIG-10-13 – July 22, 2010
 Financial Statements Audit 2009: Temporary Corporate Credit Union Stabilization Fund
 Our contracting audit firm, KPMG LLP, issued an opinion on the 2009 financial statements of the
 National Credit Union Administration Temporary Corporate Credit Union Stabilization Fund (TCCUSF).
 The auditors found that the financial statements presented fairly the financial position of the agency’s
 funds as of December 31, 2009.

 The TCCUSF was created by Public Law 111-22, ―       Helping Families Save Their Homes Act of 2009,‖
 enacted May 20, 2009. The fund was established as a revolving fund in the Treasury of the United
 States under the management of the Board of Directors of the NCUA. The purposes of the TCCUSF
 are to accrue the losses of the corporate credit union system, and over time, to assess the credit union
 system for the recovery of such losses. The auditors issued an unqualified opinion on the Fund’s
 financial statements. The TCCUSF’s net position was $(7.0) billion for the period ending December 31,
 2009.




                                                   17
OIG Semiannual Report                                                       April 1, 2010 – September 30, 2010


 OIG-10-14 –September 22, 2010
 Material Loss Review of Clearstar Financial Credit Union
 The National Credit Union Administration (NCUA) Office of Inspector General (OIG) contracted with
 Moss Adams LLP to conduct a Material Loss Review (MLR) for the Clearstar Financial Credit Union
 (Clearstar or the Credit Union). We reviewed Clearstar to: (1) determine the cause(s) of the Credit
 Union’s failure and the resulting estimated $12.2 million loss to the National Credit Union Share
 Insurance Fund (NCUSIF), (2) assess NCUA’s supervision of the Credit Union and, (3) make
 appropriate recommendations to prevent future losses. To achieve these objectives, we analyzed
 NCUA and Nevada Department of Business and Industry, Financial Institutions Division (Nevada’s
 State Supervisory Authority) examination and supervision reports and related correspondence,
 interviewed management and staff from NCUA Regions I & V, and reviewed NCUA guidance. We
 also reviewed Regions I & V policies and procedures, NCUA 5300 Call Reports, and NCUA
 Financial Performance Reports (FPR).

 We determined Clearstar failed because its Board and management did not implement proper risk
 management policies and procedures related to credit and concentration risk. Specifically,
 management originated and funded a significant amount of poorly underwritten loans to many
 borrowers that had poor credit histories. Because of this, over time, the Credit Union’s loan
 portfolio increased in credit risk.

 Additionally, the Credit Union used modified borrower classification matrixes that allowed them to
 approve loans to borrowers that were of a much higher credit risk than industry standards would
 expect. Also, in late 2008, management began extending an inordinate number of delinquent loans
 when it became obvious borrowers did not have the ability to meet their obligations. This was done
 to stem the flow of collection issues the Credit Union was facing; despite very little evidence
 borrowers would have the ability to meet their obligations when the extension period expired.

 Finally, the Credit Union focused a significantly large portion of its loan portfolio on new and used
 vehicle loans originated both internally by Credit Union personnel, as well as externally through an
 indirect loan program. Clearstar’s indirect loan program originated loans from new and used auto
 and recreational vehicle (RV) dealerships. This program, coupled with liberal underwriting policies,
 enabled the Credit Union to generate a high volume of new loans. As more of these loans were
 originated, Clearstar’s default rate increased as well. When coupled with the economic recession
 that began in 2008, the Credit Union’s failure was largely unavoidable.

 This report made one recommendation, as well as numerous observations and suggestions.
 However, the OIG plans to issue an MLR capping report with recommendations based on issues
 raised in this report as well as the other nine Material Loss Reviews conducted by the OIG. As
 resources allow, the OIG may also conduct more in-depth reviews of specific aspects of the
 NCUA’s supervision program and also make recommendations, as warranted.

 OIG-10-15 –September 23, 2010
 Material Loss Review of Ensign Federal Credit Union
 The National Credit Union Administration (NCUA) Office of Inspector General (OIG) contracted with
 Moss Adams LLP to conduct a Material Loss Review (MLR) for the Ensign Federal Credit Union
 (Ensign or the Credit Union). We reviewed Ensign to: (1) determine the cause(s) of the Credit
 Union’s failure and the resulting estimated $30 million loss to the National Credit Union Share
 Insurance Fund (NCUSIF); (2) assess NCUA’s supervision of the Credit Union; and (3) make
 appropriate recommendations to prevent future losses. To achieve these objectives, we analyzed

                                                    18
OIG Semiannual Report                                                        April 1, 2010 – September 30, 2010


 NCUA examination and supervision reports and related correspondence, interviewed management
 and staff from NCUA Regions I & V, and reviewed NCUA guidance. We also reviewed Regions I &
 V policies and procedures, NCUA 5300 Call Reports, and NCUA Financial Performance Reports
 (FPR).

 We determined Ensign failed because it’s Board of Directors and management did not implement
 appropriate risk management practices related to concentration and credit risks. Specifically,
 management adopted a high-risk strategy that allowed concentrations of up to 80 percent of the
 loan portfolio in loans secured by real estate, making them vulnerable to the steep and rapid decline
 in Nevada property values.

 Additionally, management failed to ensure proper risk mitigation practices were in place at the
 Credit Union. Management did not have a proper allowance for loan loss methodology, allowed
 loan-to-value ratios on Home Equity Lines of Credit (HELOC) loans up to 100 percent, and allowed
 for 40-year terms on mortgages. Management also failed to implement an effective collection
 program or conduct regular Asset Liability Management (ALM) meetings.                   Furthermore,
 management created additional strain on the Credit Union by not formulating an effective business
 strategy, committing to excessive fixed assets in the form of branch expansion, and failing to control
 liquidity risk.

 NCUA examiners determined, and we agree, that Ensign management 1) practiced poor
 management and lacked adequate Board oversight; and 2) allowed large concentrations in
 mortgage loans.

 We determined that despite examiners’ concerns and recommendations for improvement,
 management’s inability to effectively manage the risks that their own decisions had created
 eventually led to Ensign’s failure.

 Examiners followed NCUA guidance with regard to monitoring and frequency of examinations.
 Although examiners properly identified the significant issues at Ensign, we believe examiners did
 not sufficiently downgrade the Credit Union in a timely manner. As a result, we believe examiners
 missed opportunities to mitigate the loss to the NCUSIF.

 This report did not contain recommendations, but provided observations and suggestions.
 However, the OIG plans to issue an MLR capping report with recommendations based on issues
 raised in this report as well as the other nine Material Loss Reviews conducted by the OIG.




                                                    19
OIG Semiannual Report                                                       April 1, 2010 – September 30, 2010


     AUDITS IN PROGRESS


 NCUA Financial Statements 2010
 Our current contracting audit firm, KPMG, is working on the 2010 financial statements of the NCUA
 Operating Fund, National Credit Union Share Insurance Fund, the Central Liquidity Facility, the
 Community Development Revolving Loan Fund and the Temporary Corporate Credit Union
 Stabilization Fund (TCCUSF).

 The NCUA Operating Fund was established as a revolving fund managed by the NCUA Board for the
 purpose of providing administration and service to the federal credit union system. The National Credit
 Union Share Insurance Fund was established as a revolving fund managed by the NCUA Board to
 insure member share deposits in all Federal credit unions and qualifying state credit unions. The CLF
 was established as a mixed ownership government corporation managed by the NCUA Board to
 improve general financial stability by meeting the liquidity needs of credit unions. And the Community
 Development Revolving Loan purpose is to stimulate economic activities in the communities served by
 low-income credit unions. This in turn will result in increased income, ownership and employment
 opportunities for low-wealth residents and other economic growth. The TCCUSF, established in 2009,
 allows NCUA to borrow money from the Treasury to pay for corporate credit union losses, and then pay
 back the Treasury over time with funds obtained from assessments on federally insured credit unions.
 We expect to issue our report in February 2011.

 Material Loss Reviews of U.S. Central and Western Corporate Federal Credit Unions
 The FCU Act requires the NCUA Office of Inspector General (OIG) to conduct a material loss review
 (MLR) of an insured credit union if the loss exceeds $25 million and an amount equal to 10 percent of
 the total assets of the credit union at the time at which the Board initiated assistance or was appointed
 liquidating agent. In addition, the OIG may perform a material loss review on selected cases that
 caused a loss of less than $25,000,000 at the discretion of the Inspector General. (See next section of
 this semiannual report titled ― Report on Credit Union Losses Not Reaching Materiality Level of $25
 Million.‖)

 NCUA determined that the U.S. Central and Western Corporate credit unions’ portfolios were
 reasonably likely to sustain credit losses amounting to slightly more than $1.5 and $6 billion,
 respectively. The material loss review objectives were to (1) determine the cause(s) for the
 conservatorships of these corporate credit unions and the resulting losses to the National Credit Union
 Share Insurance Fund (NCUSIF), (2) assess supervision of the corporate credit unions, and (3) make
 appropriate recommendations to prevent future losses. To achieve these objectives, we analyzed
 NCUA examination and supervision reports and related correspondence; interviewed management and
 staff from the NCUA Office of Corporate Credit Unions; and reviewed NCUA guides, policies and
 procedures, NCUA Call Reports, and NCUA Financial Performance Reports (FPRs).




                                                    20
OIG Semiannual Report                                                        April 1, 2010 – September 30, 2010


 The OIG was notified by NCUA that the losses incurred by these credit unions had exceeded the
 statutory requirements, triggering a material loss review by the OIG. The scope of these audits will
 include an analysis of the credit union’s transactions and activities to determine the causes of failure
 and a review of the supervision of the credit union. The review will be performed in accordance with
 Government Auditing Standards for performance audits. Our objectives are to determine (1) the
 causes of the credit union’s failure and resulting material loss to the share insurance fund; and (2)
 assess the NCUA’s supervision of the institution, including implementation of the Prompt Corrective
 Action requirements of the FCU Act. Draft reports have been issued on both reviews. We expect to
 issue the final reports in October 2010.

 Material Loss Review of St Paul Croatian Federal Credit Union
 The National Credit Union Administration (NCUA) Office of Inspector General (OIG) conducted a
 Material Loss Review of St. Paul Croatian Federal Credit Union (St. Paul). We reviewed St. Paul to
 (1) determine the cause(s) of the credit union’s failure and the resulting loss to the National Credit
 Union Share Insurance Fund (NCUSIF); and (2) assess NCUA’s supervision of the credit union. To
 achieve these objectives, we analyzed NCUA examination and supervision reports and related
 correspondence; interviewed management and staff from NCUA Region III; and reviewed NCUA
 guidance, policies and procedures, NCUA Call Reports, and Financial Performance Reports. A
 draft report has been issued to NCUA management for comment. We expect to issue the final
 report in October 2010.

 Independent Evaluation of the NCUA’s Compliance with the Federal Information Security
 Management Act of 2010
 The OIG engaged Carson & Associates Inc. to independently evaluate its information systems and
 security program and controls for compliance with the Federal Information Security Management
 Act (FISMA), Title III of the E-Government Act of 2002.

 Carson & Associates Inc. is evaluating NCUA’s security program through interviews, documentation
 reviews, technical configuration reviews, social engineering testing, and sample testing. NCUA is
 being evaluated against standards and requirements for federal government agencies such as
 those provided through FISMA, National Institute of Standards and Technology (NIST) Special
 Publications (SPs), and OMB memoranda. We anticipate issuing the final report in November
 2010.

 Material Loss Review Capping Report
 The purpose of this report is to summarize significant findings from material loss reviews (MLRs)
 recently issued or in progress by the NCUA Office of Inspector General (OIG). The Federal Credit
 Union Act (FCU Act) requires the OIG to conduct a MLR of an insured credit union if the loss to the
 National Credit Union Share Insurance Fund (NCUSIF) exceeds $25 million and an amount equal
 to 10 percent of the total assets of the credit union at the time at which the NCUA Board initiated
 assistance or was appointed liquidating agent. We issued seven MLR reports during the period
 from November 2008 through May 2010 and currently have three Natural-Person Credit Union
 MLRs in progress.

 The objectives for each of the ten reports were to: (1) determine the cause(s) of the credit union’s
 failure and the resulting loss to the NCUSIF; and (2) assess NCUA’s supervision. To achieve these
 objectives, we analyzed NCUA and State Supervisory Authority (SSA) examination and supervision
 reports and related correspondence; interviewed key management and staff from NCUA
 Headquarters and Regional offices and the SSAs, as applicable; and reviewed NCUA policies and

                                                    21
OIG Semiannual Report                                                    April 1, 2010 – September 30, 2010


 procedures, Call Reports, and Financial Performance Reports (FPRs). Based on similarities and
 trends found in the first ten MLRs completed by the OIG, we will be making recommendations to
 NCUA management for corrective action. We anticipate issuing the draft report to management in
 October 2010.



     Significant Audit Recommendations on which Corrective Action Has Not Been
     Completed

 As of September 30, 2010, there were no significant audit recommendations on reports issued over six
 months ago that have not been either fully implemented or are in the process of implementation.




                                                 22
OIG Semiannual Report                                                       April 1, 2010 – September 30, 2010


 Report On Credit Union Losses Under Materiality Level of $25 Million

 Section 988 of P.L. 111-203, the ―   Dodd-Frank Wall Street Reform and Consumer Protection Act‖
 did two things relative to material loss reviews (MLR) of failed credit unions.

 First, the threshold for a mandated material loss review was raised to $25 million or greater loss to
 the National Credit Union Share Insurance Fund (NCUSIF or SIF) starting on the implementation
 date of the Act (July 21, 2010) and going forward.

 Second, the NCUA OIG is now required to (1) perform limited reviews of all credit union failures
 under the threshold to assess whether an in-depth review (consistent with the scope of a material
 loss review) is warranted and (2) report to the National Credit Union Administration Board and the
 Congress every 6 months on the results of the limited reviews and the timeframe for performing any
 in-depth reviews we determine are necessary.

 This first report on losses not reaching $25 million covers a one year period from October 1, 2009 to
 September 30, 2010. Hereafter, we will report every six months in the OIG’s semiannual report.

 For all losses to the SIF under the MLR threshold we determined (1) why NCUA initiated assistance
 and (2) whether any unusual circumstances existed that might warrant an in-depth review of the
 loss.

 For each limited review, we performed procedures that included but were not limited to: 1) obtaining
 and analyzing the regulator’s supervisory memorandum and other pertinent documents; 2)
 preparing a schedule of CAMEL ratings assigned to the institution through full scope or other
 examinations during the five years preceding the failure; 3) conducting interviews as needed; 4)
 inquiring about any investigative actions that were taken, planned, or considered involving credit
 union officials or others; and 5) analyzing supervisory history and other review methods.

 We conducted limited reviews of 27 failed credit unions that incurred losses to the SIF under $25
 million that occurred between October 1, 2009 and September 30, 2010. Based on those limited
 reviews, we determined that one of those losses (Certified Federal Credit Union) warrants
 additional work. We plan to proceed with a MLR on that institution. We intend to begin work on
 that MLR by November 1, 2010, and complete it by April 30, 2011. For the 26 failed credit unions
 for which we do not intend to conduct additional work, we concluded that either 1) no unusual
 circumstances presented themselves in our review, or 2) we had already addressed the reasons
 identified for failure in recommendations to the agency in our Material Loss Review Capping report
 or other MLR reports.

 The chart below provides details on the 27 credit union losses to the NCUSIF of less than $25
 million.   It provides details on the credit union, estimated loss to the SIF, grounds for
 conservatorship or merger, cause of the failure if one occurred, supervision, other factors, and our
 decision to proceed or not with an MLR of the credit union.




                                                    23
OIG Semiannual Report                                                           April 1, 2010 – September 30, 2010


                DECISIONS REGARDING LOSSES LESS THAN $25 MILLION

                                          Date of       Est. Loss
 Decision*   Credit Union        Region                             Grounds for the NCUA Appointment
                                          Failure       to SIF
             South End Mutual                                       High loan delinquency; Poor loan
Terminate                          1        4/8/2010        $429k
             Benefit Assn CU                                        underwriting
                                                                    Weak management; Poor recordkeeping
Terminate    Convent FCU           1       5/17/2010         $14k
                                                                    Loan delinquency; High operating expenses;
Terminate    Bethel GT FCU         1       4/30/2010         $23k
                                                                    Weak management
             Lawrence Cty
Terminate                          2        3/5/2010        $2.3m   Alleged fraud by manager
             School Empl
             Fairfield Cty OH                                       Alleged fraud by manager; Poor lending
Terminate                          3      11/30/2009        $1.4m
             Fed Emp FCU                                            decisions
             Friendship Comm                                        Excessive loan delinquency; Loan losses
Terminate                          3       2/25/2010        $354k
             FCU                                                    from suspected fraud in 2006
             Coastal Waters                                         Poor loan underwriting; Inadequate loan
Terminate                          3        1/1/2010         $1m
             FCU                                                    collections
             Bestwall                                               Loss of sponsor due to plant closing;
Terminate                          3        2/2/2010         $13k
             Brunswick FCU                                          Increased loan losses
             Community                                              High loan losses; High operating expenses;
Terminate                          3        3/1/2010        $226k
             Choice FCU                                             Ineffective management
                                                                    Alleged fraud by manager; Large loan
Terminate    AL Bratcher FCU       3       4/30/2010        $150k
                                                                    losses; High operating expenses
             Liberty Alliance                                       Weak management; High operating
Terminate                          3        5/1/2010        $650k
             FCU                                                    expenses; Loan delinquency
                                                                    Ineffective and incompetent management
Terminate    First Delta FCU       3       6/30/2010         $1m
             Industries Puerto                                      Loss of sponsor due to plant closing; High
Terminate                          3       9/13/2010        $995k
             Rico                                                   loan delinquency
             Allied Tube                                            Critically undercapitalized; alleged fraud by
Terminate                          4      12/31/2009        $493k
             Employees FCU                                          the manager
             Orange County                                          Alleged fraud by manager; significantly
Terminate                          4        6/9/2010        $1.4m
             Employees CU                                           undercapitalized.
             Kappa Alpha Psi                                        Minimally capitalized; Poor management
Terminate                          4       7/30/2010        $134k
             FCU                                                    practices
                                                                    Critically Undercapitalized (insolvent);
 Proceed     Certified FCU         4       7/31/2010        $9.2m
                                                                    suspected fraud by CEO.
                                                                    Undercapitalized due to poor
Terminate    First Service CU      4      12/17/2009        $3.7m   management/lending practices. Auto loan
                                                                    fraud
                                                                    Critically undercapitalized due to poor
Terminate    GCM FCU               4      12/31/2009        $200k
                                                                    management.
                                                                    Significantly Undercapitalized; inadequate
Terminate    First American CU     4       8/31/2009        $10m    commercial loan underwriting and poor
                                                                    portfolio management practices.




                                                       24
OIG Semiannual Report                                                           April 1, 2010 – September 30, 2010


                                           Date of       Est. Loss
 Decision*   Credit Union         Region                             Grounds for the NCUA Appointment
                                           Failure       to SIF
             Phillips County
Terminate                           4        1/6/2010         $67k   Poor management practices; insolvent
             Self-Help FCU
             Second Baptist                                          Insolvent ; alleged fraud by the previous
Terminate                           5       10/1/2009        $316k
             Church CU                                               manager
             Heritage West                                           Significantly undercapitalized; poor
Terminate                           5      12/31/2009        $545k
             FCU                                                     management
                                                                     Poor management practices; significantly
Terminate    Kern Central CU        5        1/8/2010        $5.6m
                                                                     undercapitalized
             Mutual Diversified
Terminate                           5       2/26/2010         $2m    Insolvent; alleged fraud by manager
             Employees FCU
                                                                     Insolvent due to poor management
Terminate    Tracy FCU              5       4/27/2010        $965k   practices.

                                                                     Severely undercapitalize, operating in an
Terminate    Norbel CU              5       7/29/2010        $3.5m   unsafe and unsound manner. Fraud by MBL
                                                                     officer

 *Criteria for the decisions included: (1) dollar value and/or percentage of loss; (2) institutions
 background, such as charter type and history, geographic location, affiliations, business strategy; (3)
 uncommon cause of failure based on prior MLR findings; (4) unusual supervisory history, including the
 nature and timing of supervisory action taken, noncompliance with statutory examination requirements,
 and/or indications of rating disagreements between the state regulator and NCUA; and (5) other, such
 as apparent fraud, request by NCUA Chairman or management, Congressional interest, or IG request.




                                                        25
OIG Semiannual Report                                                     April 1, 2010 – September 30, 2010


PEER REVIEWS


 April 1, 2010, through September 30, 2010.

 Audit organizations that perform audits and attestation engagements of federal government programs
 and operations are required by Government Auditing Standards to undergo an external peer review
 every three years. The objective of an external peer review is to determine whether, during the period
 under review, the audit organization’s system of quality control was suitably designed and whether the
 audit organization was complying with its quality control system in order to provide the audit
 organization with reasonable assurance of conforming to applicable professional standards.


 External Peer Review of NCUA OIG Office of Audit

 The U.S. Securities and Exchange Commission (SEC) OIG Office of Audits completed its external peer
 review of the NCUA OIG Office of Audit for the three-year period ended October 31, 2009. The SEC
 OIG issued its ― NCUA System Review Report‖ on May 7, 2010. A copy of the report is included herein
 as Appendix A. In its report, the SEC OIG rendered the opinion that the system of quality control for
 the NCUA OIG audit organization was suitably designed and complied with, to provide the NCUA OIG
 with reasonable assurance of performing and reporting in conformity with applicable professional
 standards in all material respects. Therefore, the NCUA OIG received a peer rating of pass. There are
 no outstanding recommendations from this external peer review.


 External Peer Review of National Science Foundation OIG Office of Audit

 The NCUA OIG did not conduct a peer review of another audit organization during this reporting period.
 However, on February 5, 2009, we issued an external peer review report for the audit function of the
 National Science Foundation (NSF) OIG for the three year period ended September 30, 2008. The
 NSF OIG reported to our office that it does not have any outstanding recommendations related to the
 peer review report.




                                                  26
OIG Semiannual Report                                                       April 1, 2010 – September 30, 2010


                                    INVESTIGATIVE ACTIVITY

 In accordance with professional standards and guidelines established by the Department of Justice, the
 OIG conducts investigations of criminal, civil, and administrative wrongdoing involving agency
 programs, operations and personnel. Our investigative program focuses on activities designed to
 promote accountability, effectiveness, and efficiency, as well as fighting fraud, waste, and abuse in
 agency programs and operations. In addition to our efforts to deter misconduct and promote integrity
 awareness among agency employees, we investigate referrals and direct reports of employee
 misconduct. Investigations may involve possible violations of regulations regarding employee
 responsibilities and conduct, Federal criminal law, and other statutes and regulations pertaining to the
 activities of NCUA employees.

 Moreover, we receive complaints from credit union members and officials that involve NCUA employee
 program responsibilities. We examine these complaints to determine whether there is any indication of
 NCUA employee wrongdoing or misconduct. If not, we refer the complaint to the appropriate regional
 office for response, or close the matter if contact with the regional office indicates that the complaint
 has already been appropriately handled.

 OIG HOTLINE CONTACTS

 The OIG maintains a toll free hotline to enable employees and citizens to call with information about
 suspected waste, fraud, abuse or mismanagement involving agency programs or operations. We also
 receive complaints through an off-site post office box, from electronic mail, and facsimile messages. All
 information received from any of these sources is referred to as a hotline contact. The OIG hotline
 program is handled by our Office Manager, under the direction of our Director of Investigations. The
 majority of hotline contacts are from consumers seeking help with a problem with a credit union. These
 contacts are referred to the appropriate NCUA regional offices for assistance. During this reporting
 period, we referred 162 consumer complaints to regional offices. We referred two allegations of
 potential fraud at credit unions to the NCUA Office of General Counsel.

 INVESTIGATIONS

 Loan Fraud

 During a previous reporting period, the OIG received an allegation that a NCUA senior employee may
 have been party to a loan fraud at a credit union. The OIG’s investigation into the allegation led to a
 review of the employee’s official filings of (1) Office of Government Ethics (OGE) 450’s, Confidential
 Financial Disclosure Reports; and (2) SF85P, Questionnaire for Public Trust Positions. The
 investigation revealed that the employee omitted pertinent financial information on his OGE 450’s.
 However, the investigation did not conclusively prove that the omissions were knowingly and willfully
 made, as required by 18 U.S.C. §1001 (false statements). Further, he gained no advantage from the
 omissions. In addition, the investigation did not reveal that the employee willfully made a materially
 false statement on his SF 85P. The employee admitted that in both cases, he failed to give the proper
 consideration to his obligation to file the forms to the best of his ability. The investigation concluded
 that his actions constituted administrative violations of the Standards of Ethical Conduct for Employees
 of the Executive Branch and OGE executive branch financial disclosure regulations.

 The employee retired shortly after the report was issued with no action recommended from
 management.

                                                    27
OIG Semiannual Report                                                      April 1, 2010 – September 30, 2010


 Fair Labor Standards Act
 During this reporting period, the OIG received an allegation that a contract employee was directed to
 ―work off the clock.‖ The OIG inquired into the matter, and found no basis to support the complainant’s
 allegation. The OIG closed the inquiry with an Investigative Memorandum to the file.

 Misuse of Official Time/Conflict of Interest
 During the previous reporting period, the OIG received an allegation that an employee was misusing
 official time and using his position for personal gain. The OIG conducted a preliminary inquiry into the
 matter and did not develop substantive information to warrant further investigation. The inquiry was
 closed with an Investigative Memorandum to the file.

 Standards of Ethical Conduct for Employees of the Executive Branch
 During the current reporting period, the OIG received an allegation that an employee was using his
 position as a Credit Union examiner for private gain. This investigation is ongoing.

 Fraud and Related Activity in Connection with Computers
 During the current reporting period, the OIG received an allegation that an employee had accessed the
 email of another employee without authorization. This inquiry is ongoing.



 PEER REVIEWS

 April 1, 2010, through September 30, 2010.
 Section 6(e)(7) of the Inspector General Act of 1978, as amended, requires those OIGs that have
 been granted statutory law enforcement authorities pursuant to the Act, to be periodically reviewed
 by another OIG or a committee of OIGs (Peer Review). The purpose of the peer review is to
 ascertain whether adequate internal safeguards and management procedures exist to ensure that
 the law enforcement powers conferred by the 2002 amendments to the Act are properly exercised.
 The NCUA OIG does not have statutory law enforcement authority; therefore, our investigation
 organization is not required to have a peer review and, to date, has neither undergone a peer
 review nor conducted a peer review of another OIG. However, the NCUA Office of Investigations
 intends to participate in the peer review process in the future and is tentatively scheduled to
 undergo an internal peer review in July 2011.

     .




                                                   28
OIG Semiannual Report                                                           April 1, 2010 – September 30, 2010


                            LEGISLATIVE AND REGULATORY REVIEWS

 Section 4(a) of the Inspector General Act requires the Inspector General to review existing and
 proposed legislation and regulations relating to the programs and operations of the NCUA and to make
 recommendations concerning their impact.           Moreover, we routinely review proposed agency
 instructions and other policy guidance, in order to make recommendations concerning economy and
 efficiency in the administration of NCUA programs and operations and the prevention and detection of
 fraud, waste and abuse.

 During the reporting period, the OIG reviewed 30 items, including proposed and final legislation and
 regulations, and Letters to Credit Unions. We issued formal comments on one legislative item.



                          SUMMARY OF STATUTES AND REGULATIONS REVIEWED
            Legislation                                         Title

      P.L. 111-204            “Improper Payments Elimination and Recovery Act”
      P.L. 111-203            “Dodd-Frank Wall Street Reform and Consumer Protection Act”
      S. 372                  “Whistleblower Protection Enhancement Act”
      H.R. 4983               “The Transparency in Government Act”
                              “Ineligibility of Persons Having Seriously Delinquent Tax Debts for
      H.R. 4735               Federal Employment”


          Regulations/Rulings                                           Title

      12 CFR Part 701                     Final rule: Short-Term, Small Amount Loans
      12 CFR Part 701                     Final rule: Secondary Capital Accounts
                                          Final rule: Display of Official Sign; Permanent Increase in
      12 CFR Parts 740 and 745            Standard Maximum Share Insurance
                                          Interim final rule and request for comments: The Low-Income
      12 CFR Part 701                     Definition
                                          Interim final rule and request for comments: Truth in
      12 CFR Part 707                     Savings
                                          Final rule: Chartering and Field of Membership for Federal
      12 CFR Part 701                     Credit Unions
                                          Final rule: Registration of Mortgage Loan Originators;
      12 CFR Parts 741 and 761            Correction
      12 CFR Parts 741 and 761            Final rule: Registration of Mortgage Loan Originators



                                                      29
OIG Semiannual Report                                                         April 1, 2010 – September 30, 2010


                                      Proposed Interpretative Ruling and Policy Statement:
      12 CFR Part 704                 Corporate Credit Unions
                                      Proposed rule: Golden Parachute and Indemnification
      12 CFR Parts 741 and 750        Payments; Comments


       Letters to Credit Unions                                    Title

       10-CU-021(09/2010)         State of the Credit Union Industry

       10-CU-020(09/2010)         NCUA’s 2010 Corporate Credit Union Rule

       10-CU-19 (09/2010)         Corporate Credit Union Resolution

       10-CU-18 (09/2010)         Investment Due Diligence

       10-CU-17 (09/2010)         NCUSIF Premium
                                  Reverse Mortgage Products: Guidance for Managing Compliance and
       10-CU-16 (08/2010)         Reputation Risks

       10-CU-15 (08/2010)         Indirect Lending and Appropriate Due Diligence

       10-CU-14 (08/2010)         Strengthening Funding and Liquidity Risk Management

       10-CU-13 (08/2010)         Compliance Deadline for SAFE Act

       10-CU-12 (07/2010)         State of the Credit Union Industry as of March 31, 2010

       10-CU-11 (06/2010)         Information on NCUA’s Merger and Purchase and Assumption Process

       10-CU-09 (06/2010)         Temporary Corporate Credit Union Stabilization Fund Assessment

       10-CU-07 (06/2010)         Commercial Real Estate Loan Workouts

       10-CU-06 (05/2010)         Interagency Advisory on Interest Rate Management

       10-CU-04 (04/2010)         Grants Available from NCUA




                                                    30
OIG Semiannual Report                                                           April 1, 2010 – September 30, 2010




                           TABLE I: INSPECTOR GENERAL ISSUED REPORTS
                                      WITH QUESTIONED COSTS
                                                              Number of Questioned      Unsupported
                                                               Reports    Costs            Costs

                  For which no management decision
           A.     had been made by the start of the
                  reporting period.                              0          $0                $0

           B.    Which were issued during the
                 reporting period.                               0          0                 0
                  Subtotals (A + B)                              0          0

           C.    For which management decision was
                 made during the reporting period.               0          0                 0


                 (i) Dollar value of disallowed costs
                                                                 0          0                 0
                (ii) Dollar value of costs not allowed
                                                                 0          0                 0
                  For which no management decision
           D.     has been made by the end of the
                  reporting period.                              0          0                 0
                  Reports for which no management
           E.     decision was made within six months
                  of issuance.                                   0          0                 0

 Questioned costs are those costs the OIG has questioned because of alleged violations of laws,
 regulations, contracts, or other agreements; findings which at the time of the audit are not supported by
 adequate documentation; or the expenditure for the intended purpose is unnecessary or unreasonable.

 Unsupported costs (included in "Questioned Costs") are those costs the OIG has questioned because
 of the lack of adequate documentation at the time of the audit.




                                                         31
OIG Semiannual Report                                                           April 1, 2010 – September 30, 2010




                         TABLE II: INSPECTOR GENERAL ISSUED REPORTS WITH
                        RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                             Number of        Dollar
                                                                              Reports         Value


                   For which no management decision had been
           A.                                                                    0              $0
                   made by the start of the reporting period.

           B.      Which were issued during the reporting period.                0               0

                                    Subtotals (A + B)                            0               0


                  For which management decision was made
           C.                                                                    0               0
                  during the reporting period.

                 (i) Dollar value of recommendations agreed to
                     by management.                                             N/A            N/A


                 (ii) Dollar value of recommendations not agreed
                      to by management.                                         N/A            N/A


                   For which no management decision was made
           D.                                                                    0               0
                   by the end of the reporting period.


                   For which no management decision was made
           E.                                                                    0               0
                   within six months of issuance.

 Recommendations that "Funds to be Put to Better Use" are those OIG recommendations that funds could be
 used more efficiently if management took actions to reduce outlays, de-obligate funds from programs/operations,
 avoid unnecessary expenditures noted in pre-award reviews of contracts, or any other specifically identified
 savings.




                                                        32
OIG Semiannual Report                                                       April 1, 2010 – September 30, 2010




                                 TABLE III: SUMMARY OF OIG ACTIVITY
                                  April 1 through September 30, 2010

                                   PART I – AUDIT REPORTS ISSUED
     Report                                                                                          Date
     Number                                          Title                                          Issued

OIG-10-02        Material Loss Review of Center Valley FCU                                        4/14/2010

OIG-10-03        Material Loss Review of Cal State Credit Union                                   4/14/2010

OIG-10-04        Material Loss Review of Eastern Financial Florida Credit Union                   5/05/2010

OIG-10-05        NCUA Financial Statements Audit 2008 – Operating Fund                            6/11/2010

OIG-10-06        NCUA Financial Statements Audit 2008 – Share Insurance Fund                      6/11/2010

OIG-10-07        NCUA Financial Statements Audit 2008 – Central Liquidity Facility                6/11/2010
                 NCUA Financial Statements Audit 2008 – Community Development
OIG-10-08        Revolving Loan Fund                                                              6/11/2010

OIG-10-09        NCUA Financial Statements Audit 2009 – Operating Fund                            6/11/2010

OIG-10-10        NCUA Financial Statements Audit 2009 – Share Insurance Fund                      6/11/2010

OIG-10-11        NCUA Financial Statements Audit 2009 – Central Liquidity Facility                6/11/2010
                 NCUA Financial Statements Audit 2009 – Community Development
OIG-10-12        Revolving Loan Fund                                                              6/11/2010
                 NCUA Financial Statements Audit 2009 – Temporary Corporate Credit
OIG-10-13        Union Stabilization Fund                                                         7/22/2010

OIG-10-14        Material Loss Review of Clearstar Financial Credit Union                         9/22/2010

OIG-10-15        Material Loss Review of Ensign Federal Credit Union                              9/23/2010
                        PART II – AUDITS IN PROGRESS (as of September 30, 2010)

Independent Evaluation of the NCUA’s Compliance with FISMA 2010

Material Loss Review of U.S. Central Corporate Federal Credit Union

Material Loss Review of Western Corporate Federal Credit Union

Material Loss Review of St. Paul Croatian Federal Credit Union

NCUA Financial Statements Audit 2010




                                                    33
OIG Semiannual Report                                                        April 1, 2010 – September 30, 2010




                                INDEX OF REPORTING REQUIREMENTS
                                                                                                  Page
     Section                                   Data Required
                                                                                                  Ref
    4(a)(2)    Review of legislation and regulations                                              30
    5(a)(1)    Significant problems, abuses, or deficiencies relating to the administration of    13
               programs and operations disclosed during the reporting period.
    5(a)(3)    Recommendations with respect to significant problems, abuses or deficiencies       13
    5(a)(3)    Significant recommendations described in previous semiannual reports on            22
               which corrective action has not been completed.
    5(a)(4)    Summary of matters referred to prosecution authorities and prosecutions            None
               which have resulted.
    5(a)(5)    Summary of each report to the Board detailing cases where access to all            None
               records was not provided or where information was refused.
    5(a)(6)    List of audit reports issued during the reporting period.                          34
    5(a)(7)    Summary of particularly significant reports.                                       13
    5(a)(8)    Statistical tables on audit reports with questioned costs.                         32
    5(a)(9)    Statistical tables on audit reports with recommendations that funds be put to      33
               better use.
    5(a)(10)   Summary of each audit report issued before the start of the reporting period       None
               for which no management decision has been made by the end of the reporting
               period.
    5(a)(11)   Description and explanation of reasons for any significant revised                 None
               management decision made during the reporting period.
    5(a)(12)   Information concerning significant management decisions with which the             None
               Inspector General is in disagreement.
    5(a)(14)   An appendix containing the results of any peer review conducted by another         26
               OIG during the reporting period or, if no peer review was conducted within that
               reporting period, a statement identifying the date of the last peer review
               conducted by another OIG.
    5(a)(15)   List of outstanding recommendations from any peer review conducted by              None
               another OIG that have not been fully implemented.
    5(a)(16)   A list of any peer reviews conducted by the IG of another OIG during the           26
               reporting period, including a list of any outstanding recommendations made
               that remain outstanding or have not been fully implemented.




                                                    34
OIG Semiannual Report                                     April 1, 2010 – September 30, 2010


     APPENDIX A: NCUA SYSTEM REVIEW REPORT (SEC OIG REPORT NO. 478)




                                        35
OIG Semiannual Report        April 1, 2010 – September 30, 2010




                        36
OIG Semiannual Report        April 1, 2010 – September 30, 2010




                        37
OIG Semiannual Report        April 1, 2010 – September 30, 2010




                        38
OIG Semiannual Report        April 1, 2010 – September 30, 2010




                        39
